|

In The

Supreme Court of the United States
A

ANTHONY ROBINSON,

Petitioner,

v.
UNITED STATES DEPARTMENT OF
EDUCATION,

Respondent,
ee
On Petition For Writ Of Certiorari To
The United States Court Of Appeals
For The Fifth Circuit

PROOF OF SERVICE
I declaye that: Jama resident of Cayucos, California. I am over the age of
18 years and not a party to the within entitled cause. My name and address is
Dorothy Kleinhammer 1000 Park Avenue, Cayucos, CA 93430..

On October 15, 2019, I served pursuant to Supreme Court Rule 29.5, three
copies on all parties required the following document(s):

1. PETITION FOR WRIT OF CERTIORARI

(x) BY PRIORITY MAIL: Depositing a true and correct copy thereof enclosed in a
sealed envelope with the United States Postal Service with postage prepaid at Paso
Robles, California. The envelope was addressed and mailed as follows:

 

Solicitor General of the United States
Room 5616

Department of Justice

950 Pennsylvania Avenue,

N. W. Washington, DC 20530-0001.

The following Counsel for the Appellant email addresses has also been
ELECTRONICALLY served: NA

I declare under the penalty of perjury that the foregoing is true and correct.

\
Executed on October 15, 2019, at Atascadero, Calfoua: \ ,
, \ / x
| ‘
DATED: 10-15-2019 || of Vv
/

Dorothy Kleinhammer_____ 4 Lelie p flip, tle Lee CL
Name of person completing this form (signature of person completing this form)

   
  

 
